                            Office of Inspector General
                            Strategic Plan
Corporation for Public Broadcasting                                                Fiscal Years 2014-2018



         We are pleased to present the Strategic Plan for the Office of Inspector General (OIG) of the
         Corporation for Public Broadcasting (CPB) for fiscal years 2014-2018. In this plan, we
         identify the principles and goals that will govern our work over the next five years. In our
         Annual Plans, we will identify more specifically the work that we will undertake in each fiscal
         year and the measures we will apply to assess our performance. While this Strategic Plan is
         a framework for our efforts over the next five years, we will seek input from Congress, CPB,
         and other stakeholders throughout this period and revise this Plan as necessary.

         CPB is a private, nonprofit corporation created by Congress in 1967 to promote the growth
         and development of public media. It is the largest single source of funding for public radio,
         television, and related online and mobile services. In the 1988 amendments to the
         Inspector General Act of 1978, Congress created OIG as an independent objective unit
         within CPB to promote the efficiency, effectiveness, and integrity of its initiatives and
         operations.

                                                 Vision
         We support public media by promoting accountability for and recommending improvement
         in the initiatives and operations of CPB.


                                                Mission
         To promote the efficiency, effectiveness, and integrity of CPB initiatives and operations, we
         conduct independent and objective audits, investigations, and other reviews.


                                             Core Values
         Integrity – All of our work must be fair, balanced, and credible.
         Excellence -- We do our best in all of our activities and follow professional standards.
         Collaboration – We seek and value input from each other and all stakeholders.
Page 2                                                                                          OIG Strategic Plan




                                          Goals and Strategies
         Goal 1                            Goal 2                           Goal 3
         Provide timely and quality        Promote effective working        Promote excellence in OIG.
         products that benefit CPB         relationships with Congress,
                                                                            Strategies
         initiatives and operations.       the CPB Board of Directors
                                           (Board), management, and         •   Maintain a diverse, highly
         Strategies
                                           stakeholders and increase            skilled workforce.
         •   Conduct risk-based            the visibility of OIG in the     •   Foster an environment of
             audits, evaluations, and      public media community.              open communication,
             other reviews of CPB
                                           Strategies                           respect for ideas, and
             grantees, contractors,
                                                                                appreciation for each
             vendors, and operations       •   Keep CPB’s Board and
                                                                                individual’s contribution.
             that provide                      management
             accountability and                appropriately informed of    •   Provide technology,
             recommend                         OIG activities.                  equipment, training, and
             improvement.                                                       other resources
                                           •   Promptly respond to
                                                                                necessary to our work.
         •   Conduct investigations to         Congressional requests
             improve integrity over            for information or
             CPB programs and                  assistance.
             operations.
                                           •   Reach out to the public
         •   Fully evaluate all                media community.
             allegations submitted to
             OIG and follow-up as
             appropriate.

         These OIG goals align with CPB’s strategic priorities of transparency and integrity.


                                         Performance Measures
         We will measure our performance by evaluating such markers as the timeliness and impact of
         our reports, our responsiveness to Congressional requests, our processing of complaints, our
         outreach to stakeholders, and employee training and satisfaction. We set out our specific
         performance measures in our FY 2014 Annual Plan. These measures are incorporated in OIG
         employee performance agreements, thus ensuring that OIG work is aligned with our
         strategic goals and supports the priorities of CPB.
                                                                                              OIG Strategic Plan
Page 3




                                                     Authority
         Under the Inspector General Act of 1978, as amended, OIG is an independent organization
         within CPB with authority to:
             •   Conduct and supervise audits and investigations relating to CPB’s initiatives and
                 operations;
             •   Provide leadership, coordination, and recommend policies for activities designed to
                 promote economy, effectiveness, and efficiency, and to prevent and detect fraud and
                 abuse in, CPB’s initiatives and operations.
             •   Keep CPB’s Board and Congress fully and currently informed of problems and
                 deficiencies in CPB’s initiatives and operations and on the status of corrective actions.
         To facilitate our reviews, the Act provides that the OIG will have access to all pertinent
         information available to CPB. In conducting our activities, we adhere to audit standards set by
         the Government Accountability Office and professional standards adopted by the Council of
         the Inspectors General on Integrity and Efficiency.


                                                  Contact OIG
         Anyone knowing of fraud, waste, or abuse involving CPB funds, programs, or operations should call,
         fax, write, e-mail OIG or file a complaint through our website. Your report may be made anonymously
         or in confidence.




                              Call:                                               Write:
                   Inspector General Hotline                            Inspector General Hotline
                        202-879-9728 or                                           CPB
                         800-599-2170                                     401 Ninth Street, NW
                              Fax:                                    Washington, DC 20004-2129
                         202-879-9699




                                                       E-mail:
                                                 oigemail@cpb.org


                                                      Website:
                                           www.cpb.org/oig/contact.php
